21-5109
IN THE SUPREME COURT
FOR THE UNITED STATES OF AMERICA

ORIGINAL
Supreme Court, U.S.
FILED

JUL 0 2 2021
OFFICE OF THE CLERK

UNITED STATES OF AMERICA,
APPEAL NO. 20-14724-D

v.

EVERETT JEROME TRIPODIS,
Defendant-Petitioner.

MOTION FOR LEAVE TO PROCEED ‘IN FORMA PAUPERIS*
COMES NOW Petitioner Everett Jerome Tripodis, pro se, and files his
“Motion for Leave to Proceed In Forma Pauperis’'’ (IFP). In support he shows as
follows:
1.
Petitioner was ruled indigent by the United States District Court for the
Northern District of Georgia. He was appointed legal counsel pursuant to the
Criminal Justice Act, and is represented by CJA attorney Mark C. Campbell in his ,
underlying criminal case.

2.
Because he is indigent, the Eleventh Circuit Court of Appeals appointed
Mark C. Campbell to represent Petitioner on appeal. However, said attorney has
refused to further represent Petitioner in subsequent appeals to the Eleventh Circuit

RECEIVED
JUL - 9 2021
l

and this Court—even though they involve further review of the same appeal and
legal questions.
3. .
Petitioner is not currently employed and has been incarcerated for nearly 3
years without bond. He is still in pretrial custody in Lovejoy, Georgia, and this
prolonged detention is the basis for the instant supplication and request for review.
4.
Petitioner cannot afford to pay this Court’s filing fees at this time, and
without this Court’s permission to proceed without payment of fees, he cannot
obtain redress from this Court. He will subsequently suffer irreparable injury and
substantial constitutional rights violations.
5.
This Petition is taken in good faith, and indeed, Petitioner’s contentions have
legal merit.

WHEREFORE, Petitioner Prays this Honorable Court will GRANT his
motion to proceed in forma pauperis in this matter.

Respectfully Submitted,

This

Everett Jerome Tripodis
4 'PetUidner, pro se.

2

day of June, 2021.

APPELLATE CASE NO. 20-14724-D
DISTRICT COURT CASE NO. 1:18-CR-00240-TWT

CERTIFICATE OF SERVICE
Under the penalty of perjury, in compliance with 28 U.S.C. § 1746,1 hereby
certify that a true and exact copy of the foregoing was provided to the opposing
party via First Class U.S. mails. Said pleading was sent using the prison mailbox
system1 at Robert A. Deyton Detention Facility in Lovejoy, Georgia. It was
properly directed to the United States Attorney’s Office, c/o Rebeca Ojeda, 75 Ted
Turner Drive S.W., Atlanta, Georgia 30303. Sufficient postage was affixed.
This

day of

2021.

Signed:
Everett J. Tripodis, Petitioner (pro se)

1 Prisoners' documents are deemed filed the moment they are delivered to prison
authorities for mailing. Houston v. Lack, 487 U.S. 266 (1988).

3

